<html>
<title> - WORK INCENTIVES IN SOCIAL SECURITY DISABILITY PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                           WORK INCENTIVES IN
                  SOCIAL SECURITY DISABILITY PROGRAMS

=======================================================================

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                  and

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2011

                               __________

                     Serial No. 112-SS10 & 112-HR08

                               __________

         Printed for the use of the Committee on Ways and Means





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE

75-187                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
GEOFF DAVIS, Kentucky                XAVIER BECERRA, California
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
CHARLES W. BOUSTANY, JR., Louisiana  MIKE THOMPSON, California
PETER J. ROSKAM, Illinois            JOHN B. LARSON, Connecticut
JIM GERLACH, Pennsylvania            EARL BLUMENAUER, Oregon
TOM PRICE, Georgia                   RON KIND, Wisconsin
VERN BUCHANAN, Florida               BILL PASCRELL, JR., New Jersey
ADRIAN SMITH, Nebraska               SHELLEY BERKLEY, Nevada
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York

                       Jon Traub, Staff Director

                  Janice Mays, Minority Staff Director

                                 ______

                    Subcommittee on Social Security

                      SAM JOHNSON, Texas, Chairman

KEVIN BRADY, Texas                   XAVIER BECERRA, California, 
PATRICK J. TIBERI, Ohio              Ranking
AARON SCHOCK, Illinois               LLOYD DOGGETT, Texas
RICK BERG, North Dakota              SHELLEY BERKLEY, Nevada
ADRIAN SMITH, Nebraska               FORTNEY PETE STARK, California
KENNY MARCHANT, Texas

                                 ______

                    Subcommittee on Human Resources

                    GEOFF DAVIS, Kentucky, Chairman

ERIK PAULSEN, Minnesota              LLOYD DOGGETT, Texas, Ranking
RICK BERG, North Dakota              JIM MCDERMOTT, Washington
TOM REED, New York                   JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.











                            C O N T E N T S

                               __________

                                                                   Page

Advisory of September 23, 2011, announcing the hearing...........     2

                               WITNESSES

Robert W. Williams, Associate Commissioner, Office of Employment 
  Support Programs, accompanied by Dr. Robert R. Weathers II, 
  Deputy Associate Commissioner, Office of Program Development 
  and Research, Social Security Administration...................    10
Daniel Bertoni, Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........    23
Deb Russell, Manager, Outreach and Employee Services, Walgreen 
  Company, Deerfield, Illinois...................................    44
James Hanophy, Assistant Commissioner, Texas Department of 
  Assistive and Rehabilitative Services, Austin, Texas, on behalf 
  of the Council of State Administrators of Vocational 
  Rehabilitation.................................................    55
Cheryl Bates-Harris, Senior Disability Advocacy Specialist, 
  National Disability Rights Network, on behalf of the Consortium 
  for Citizens with Disabilities Employment and Training Task 
  Force..........................................................    70
John Kregel, Professor, Special Education and Disability Policy, 
  Virginia Commonwealth University, Richmond, Virginia...........    88

                       SUBMISSIONS FOR THE RECORD

Arizona Bridge to Independent Living, statement..................   270
Corporation for Enterprise Development, statement................   278
Linda Landry, statement..........................................   281
Health and Disability Advocates, statement.......................   283
National Association of Benefits and Work Incentives Specialists, 
  statement......................................................   294
National Disability Rights Network, statement....................   297
Oregon Department of Human Services Office of Vocational 
  Rehabilitation Services, statement.............................   300
Steve Kofahl, statement..........................................   301
APSE, statement..................................................   304

 
                           WORK INCENTIVES IN
                  SOCIAL SECURITY DISABILITY PROGRAMS

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2011

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:05 a.m., in 
room 1100, Longworth House Office Building, Hon. Sam Johnson 
(Chairman of the Subcommittee on Social Security), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                  SUBCOMMITTEE ON SOCIAL SECURITY AND

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
September 23, 2011
SS-10 & HR-08

                  Chairman Johnson and Chairman Davis

             Announce a Joint Hearing on Work Incentives in

                  Social Security Disability Programs

    U.S. Congressman Sam Johnson (R-TX), Chairman of the House 
Committee on Ways and Means Subcommittee on Social Security, and U.S. 
Congressman Geoff Davis (R-KY), Chairman of the House Committee on Ways 
and Means Subcommittee on Human Resources, announced today that the 
Subcommittees will hold a joint oversight hearing on work incentives in 
Social Security disability programs. The hearing will take place on 
Friday, September 23, 2011, in room 1100, Longworth House Office 
Building, beginning at 9 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing. A list of invited 
witnesses will follow.
      

BACKGROUND:

      
    The Social Security Administration (SSA) administers two programs, 
Social Security Disability Insurance (SSDI) and Supplemental Security 
Income (SSI), which together provide benefits each year to nearly 14 
million beneficiaries unable to work because of severe disabling 
conditions. The SSDI program pays benefits to those who have sufficient 
past employment covered by Social Security to qualify. The SSI program 
pays benefits to those who currently have limited income and assets, 
regardless of prior work history.
      
    After being awarded benefits based on an inability to work, 
individuals may attempt to return to work and are offered a variety of 
programs and supports provided by the SSA. In the most recent 
beneficiary survey, 40 percent of beneficiaries were interested in 
working, yet in 2009, only one half of 1 percent left the rolls to 
return to work. The experience of a cohort of new SSDI beneficiaries 
tracked over 10 years showed that nearly 30 percent worked at some 
time, and 6.5 percent were able to sustain earnings sufficient to have 
their benefits suspended.
      
    The Ticket to Work and Work Incentives Improvement Act of 1999 
(P.L. 106-170) established the Ticket to Work and Self-Sufficiency 
program, expanded the availability of health care coverage, and 
provided for demonstration projects and studies. The Ticket to Work 
program, administered by the SSA, increases choice in obtaining 
rehabilitation and vocational services, and provides greater 
opportunities for SSDI and SSI recipients to receive assistance to help 
them return to work.
      
    Services are furnished through the current system of State 
Vocational Rehabilitation (VR) agencies or a ticket holder's choice of 
an approved public or private sector, program-specific Employment 
Network (EN) to assist them in entering or re-entering the workforce. 
When the ticket program was implemented, the SSA automatically issued 
tickets to most adult beneficiaries on the rolls, and has continued to 
issue them to new beneficiaries. Through June of this year, according 
to the SSA, of the approximately 12.7 million tickets that have been 
issued since the program's inception, 290,189 or approximately 2.3 
percent have been assigned to an EN or VR agency.
      
    In July 2008, the SSA made major regulatory changes to the Ticket 
to Work program in an effort to increase participation by ENs and 
beneficiaries. These changes, however, have not been in place long 
enough for an accurate assessment of their impact. However, a May 2011 
Government Accountability Office (GAO) assessment concluded ``at this 
time, the agency [SSA] still lacks critical management and oversight 
mechanisms to assess whether the program is achieving its original 
purpose, and ultimately, whether the program is viable.''
      
    The Ticket to Work Act also authorized two programs now known as 
the Work Incentive Planning and Assistance (WIPA) program and the 
Protection and Advocacy for Beneficiaries of Social Security (PABSS) 
program. Under the WIPA program, SSA funds community-based 
organizations to assist beneficiaries in understanding and utilizing 
SSA's complex work incentives policies. Under the PABSS program, SSA 
funds protection and advocacy systems to provide assistance to help 
beneficiaries secure, maintain, or regain employment. The authorization 
for both programs will expire on September 30, 2011, but existing 
funding permits WIPAs to continue providing services until June 30, 
2012 and PABSS programs to continue serving their clients until 
February 29, 2012.
      
    SSA is also developing or conducting several demonstration projects 
to test new work incentive policies for Social Security disability 
beneficiaries, including a sliding scale benefit reduction. However, 
because SSA's demonstration authority for disability insurance 
beneficiaries expired in December 2005, SSA can continue demonstrations 
already initiated, but cannot begin new projects. Reports issued by the 
GAO in 2004 and 2008 raised concerns about SSA's management of its 
demonstration projects. The President's FY 2012 budget included a 
proposal to reauthorize for 5 years SSA's demonstration authority for 
the DI program and require the Commissioner to conduct a demonstration 
project testing alternative methods of treating work activity by DI 
beneficiaries.
      
    Last, past testimony before the Subcommittees has reported that 
former beneficiaries have been overpaid tens of thousands of dollars 
due to SSA's delays in terminating benefits, even if beneficiaries have 
informed the agency that they are working. The threat of receiving 
large overpayments, which must later be repaid, can be a significant 
work disincentive for disability beneficiaries.
      
    In announcing the hearing, Chairman Sam Johnson (R-TX) stated, 
``Those receiving disability benefits who want to work are looking for 
a hand up, not a hand out, to help them achieve a better life for 
themselves and their families. Now, more than ever, how every taxpayer 
dollar is spent matters. Programs that don't achieve results must be 
changed or must end. This hearing will help us determine whether the 
work incentive programs are getting those who can back to work and a 
life of self sufficiency.''
      
    Chairman Geoff Davis (R-KY) went on to add, ``Work lets individuals 
build a better life for themselves and their families. We should help 
individuals with disabilities who want to work to achieve that better 
life. That starts with reviewing what we are doing now to assist 
individuals with disabilities who want to work, and then holding SSA 
and its work incentive programs more accountable for improving on and 
achieving that critical goal.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the current work incentives in the SSDI 
and SSI programs, their impact on the number of individuals exiting the 
benefit roles, including the data and reports documenting such impact. 
The Subcommittees will also examine recommended performance standards 
to guide future evaluations of work incentives programs, with 
particular focus on Ticket to Work, WIPA, PABSS, and Vocational 
Rehabilitation Services. In addition, ongoing and proposed SSDI 
demonstration projects will also be reviewed.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word or 
WordPerfect document, in compliance with the formatting requirements 
listed below, by the close of business on Friday, October 7, 2011. 
Finally, please note that due to the change in House mail policy, the 
U.S. Capitol Police will refuse sealed-package deliveries to all House 
Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman JOHNSON. Good morning. We had a late night last 
night, and some of our guys haven't woken up yet.
    But this hearing will come to order. I welcome and thank 
Chairman Davis and Ranking Member Doggett and the Members of 
the Subcommittee on Human Resources for joining us in this 
joint hearing.
    Our Nation's most vulnerable citizens are at the center of 
a perfect storm. Record deficits, a still struggling economy, 
and an unsustainable future spending path, driven by the aging 
of Americans, all threaten the essential programs those with 
disabilities count on. We have been warned by the Social 
Security trustees that the disability insurance program will 
soon be unable to pay full benefits beginning just 7 years from 
now, in 2018. Those who depend on these critical benefits are 
counting on us to act, and we will.
    This Committee will soon hold hearings on the many 
challenges facing Social Security disability. Today we turn to 
the issue of helping those already receiving benefits who want 
to work. To achieve that end, Social Security administers a 
number of work-incentive programs. Congress established the 
current State Vocational Rehabilitation Reimbursement program--
that is a mouthful, isn't it--in 1981 to encourage State 
vocational rehabilitation agencies to provide services that 
would result in work by disability beneficiaries. Last year, 
Social Security paid over $100 million for these services.
    In 1999, Congress passed the Ticket to Work and Work 
Incentives Improvement Act to make it easier for beneficiaries 
to return to work. The Ticket program allows beneficiaries to 
choose a public- or private-sector service provider, known as 
an employment network, to get the training and support they 
need to find jobs, which, in turn, leads to benefit savings 
because they leave the benefit rolls, theoretically.
    Two grant programs were also created as part of the Ticket 
legislation. One helps beneficiaries understand Social 
Security's complex rules, and the other assists in the 
resolution of potential disputes with employers. The 
authorization for these two programs expires September 30, 
though their funding continues until the next year.
    So where are we today? As we will soon hear, while there is 
some progress to report, the results are disappointing, and 
problems remain. A recent report by the GAO found Social 
Security's oversight and management of the Ticket to Work 
program isn't where it needs to be. For example, certain 
employment networks were telling ticket holders how they could 
work and keep their full benefits. This is simply unacceptable. 
Other employment networks are increasingly splitting the Ticket 
payment with beneficiaries while providing no direct services.
    At the same time, I have seen for myself how beneficiaries 
and employers benefit when the system works. While back home 
this August, I visited the Walgreens distribution center in 
Waxahachie, Texas. There, with the help of the Texas Department 
of Assistive and Rehabilitative Services, those with 
disabilities, including former beneficiaries, work side by side 
with other workers doing the same job for the same pay with the 
same performance. I look forward to hearing more of their 
inspiring stories today.
    Despite these and other work incentives, the fact is less 
than half of 1 percent of those receiving disability has left 
the benefit rolls to work. Now more than ever, how every 
taxpayer dollar is spent matters. Programs that don't achieve 
results must be fixed, or they must end. The question we must 
answer today is how work incentives can achieve the results 
Congress and the taxpayers expect and those with disabilities 
deserve.
    I now recognize Mr. Doggett, the Ranking Member of the 
Subcommittee on Human Resources, for his opening statement.
    Mr. DOGGETT. Well, thank you very much, Chairman Johnson, 
Chairman Davis. And to all of our witnesses this morning, we 
look forward to hearing from you.
    I think we all want a system here where any American who 
wants to work can work, and recognize that our workforce needs 
to provide a range of services or of functional levels so that 
we can make reasonable accommodation, where necessary, to allow 
those who have limitations and disabilities to participate to 
the full extent of their disability. We must also recognize 
that there are some people who have a disabling condition that 
is so severe that they cannot participate in the workforce. 
Those who are unable to work must have the guarantee of a 
safety net that is more net than hole and that helps them live 
in dignity.
    As the recent U.S. census data indicates, we have an 
increasing number of individuals with disabilities who are 
poor. Nearly 30 percent of people who suffer from a disability 
live in poverty today in the United States. And to some extent, 
with reference to the Supplemental Security Income program, 
that is because the payment is not overly generous. Last year, 
the monthly benefit was a little less than $500 on the average, 
which would carry you to just a little over half of the poverty 
measure, according to the Congressional Research Service. The 
majority of those who receive SSI have a disability that is 
expected to last at least a year or result in death, and 
renders them incapable of performing a substantial level of 
work. So it is not surprising that those who are on SSI, 
receiving those limited benefits, may have difficulty or it may 
be impossible for them to move back into the workforce.
    At the same time, when you look at the way the law is 
written and the way it has been in effect since 1974, when 
someone who relies on SSI does see improvement in their 
condition, they want to begin to provide some type of 
employment service, they face the limitation that after the 
first $20 of income, their SSI benefit is reduced by $1 for 
every $2 of earned income exceeding $65 a month until the 
benefit level reaches zero. This income disregard used to 
determine program eligibility of benefit levels, and it has not 
been replaced since originally set up in 1974.
    As Chairman Johnson mentioned, we have made some progress 
through the Ticket to Work Act, but it is important to analyze 
how that has worked here and what we can do to make it more 
effective.
    In my home State of Texas, which I share with Chairman 
Johnson, one of the organizations working in this area is 
Disability Rights Texas. They helped a 41-year-old Austinite 
with spina bifida who receives SSI and had always assumed that 
he wouldn't be able to work because he was afraid he would lose 
his benefits. Although he had acknowledged that his disability 
is very severe, and he had no work experience or training, he 
nonetheless decided he would try to work. Disability Rights 
Texas referred him to rehabilitative services and a customized 
employment program that ultimately helped him receive a job 
placement where he is experiencing some success and taking 
pride in the value of his work.
    Another example is a gentleman who lives in Maynard, Texas, 
outside of Austin, who experiences a combination of both 
physical and mental problems that severely affect him. The 
administrative law judge who decided his case noted that he was 
living in a car in the woods and would just sit there most of 
the day and talk to himself and the animals. By the time he had 
his disability determination hearing, he had been living in the 
nonrunning vehicle for over 4 years and had undergone five 
psychiatric hospitalizations. Now that he receives SSI 
benefits, he has access to housing and regular medical and 
psychiatric care.
    A contrasting set of examples about why we need to continue 
to strive to improve SSI, but why it will be necessary for some 
individuals who are not able to become productive members of 
our workforce.
    Mr. Chairman, thank you for holding today's hearing, and we 
look forward to cooperating with you in seeking improvements in 
the program while maintaining this vital safety net. Thank you.
    Chairman JOHNSON. Thank you.
    I will now recognize the chairman of the Subcommittee on 
Human Resources, Chairman Davis, for his opening statement.
    Chairman DAVIS. Thank you, Chairman Johnson.
    As my colleagues have discussed, today's hearing examines 
the effectiveness of work incentives administered by the Social 
Security Administration designed to help people with 
disabilities go to work. Chairman Johnson and Ranking Member 
Doggett focused on the effects, especially on individuals who 
receive disability checks from the Social Security Disability 
Insurance program.
    As Chairman of the Human Resources Subcommittee, I want to 
discuss the implications for people on the Supplemental 
Security Income, or SSI program, which falls under our 
Subcommittee's jurisdiction. This is our first hearing this 
year specifically on the SSI Program, and I can't think of a 
more appropriate topic than how we help people go back to work, 
and whether those efforts are succeeding.
    Since SSI first started paying benefits in 1974, this 
means-tested cash assistance program has always encouraged work 
and earnings by reducing benefits by only $1 for every $2 in 
earnings. In other words, SSI, by design, tries to overcome 
disincentives to work inherent in a benefit program for 
disabled people with very low income. Even though SSI 
recipients have less work experience than SSDI recipients, an 
average of 5 percent leave the SSI rolls each year due to 
income from work or other sources--this is 10 times the rate 
for SSDI recipients. Still, 5 percent is a very low rate.
    The key questions we have today are, do current programs 
and policies actually promote work? And if not, what else 
should we be doing? Our focus is on working-age, disabled 
individuals, nearly 40 percent of whom have expressed an 
interest in working. Disability applicants spend months and, in 
most cases, years proving they are disabled enough to merit 
benefit payments. Once they successfully prove they are too 
disabled to work, we encourage them to try to work with the 
goal of leaving the benefit rolls again. If it sounds 
complicated and contradictory, that is because it is.
    SSA manages a complex system of work incentives that 
include various exemptions and exceptions and disregards that 
are both difficult for beneficiaries to understand and for SSA 
to efficiently administer. This confusing diagram up on the 
screen in front of you displays just the SSI work incentives, 
and it says it all. A similarly confusing chart exists for the 
SSDI program. What this all suggests is we need more balance. 
Balance for the beneficiary when it comes to easing the 
transition to work while reducing complexity that has become an 
obstacle to work. And balance for the Social Security 
Administration in administering complex work incentives 
efficiently and effectively. Ultimately, this involves a 
balance of taxpayer dollars, too.
    What is the right balance of incentives for individuals who 
are unable to work due to disability and who receive cash 
benefits, health coverage, and support for a range of 
assistance and other programs? Is there more assistance that 
would better help them work, or would more assistance make it 
even harder for them to work if the benefits of not working 
increasingly outweigh the benefits of working? The question is, 
what is the right balance? This discussion is why today's 
hearing is so important.
    Encouraging work and self-sufficiency improves the well-
being of individuals and families regardless of their 
disability status. We need to look deeper into these programs 
to hold SSA, current work incentives, and ourselves accountable 
for achieving this goal in a fiscally responsible manner. We 
can't continue to just ``do more'' and ``spend more'' and hope 
that it helps. We need to start by reviewing whether what we 
are already doing is working to help beneficiaries so we can 
ensure taxpayer resources are properly targeted.
    We have an excellent panel of witnesses with us today to 
discuss these complicated issues and more. We look forward to 
all of their testimonies.
    With that, I yield back.
    Chairman JOHNSON. Thank you. I appreciate your comments.
    I will now recognize the Ranking Member on the Subcommittee 
on Social Security Mr. Becerra for his comments.
    Mr. BECERRA. Thank you, Mr. Chairman, to both chairmen, for 
holding this hearing today.
    We are examining today some of the tools SSA has to assist 
disabled Americans who receive benefits, but want to try to 
return to work. I hope that this will be the starting point for 
moving legislation to continue the Social Security services 
that have allowed disabled Americans to live and work with 
dignity.
    Let us put things into perspective. Social Security's 
disability programs; the Social Security Disability Insurance, 
DI, program; and the Supplemental Security Income program, SSI, 
are designed for people with severe work disabilities. In order 
to qualify, Americans must suffer from a medical condition so 
severe that, according to medical and vocational experts, it 
essentially prevents them from doing any work at all.
    Most Americans receiving DI or SSI benefits are quite sick. 
About 1 out of every 5 men awarded DI benefits dies within 5 
years of starting benefits, and about 1 in every 10 Americans 
awarded DI benefits suffers from cancer. Yet only the very 
sickest cancer patients qualify for benefits. In 2010, 1.6 
million Americans were diagnosed with cancer, but fewer than 10 
percent of them were awarded DI benefits because they had 
cancer.
    New beneficiaries are also likely to be older. Almost 6 of 
every 10 Americans who are awarded benefits are 50 years or 
older. Nevertheless, a small number of severely disabled 
Americans courageously manage to work despite very serious 
challenges, and many others want to try. We should encourage 
work whenever possible, such as by providing support to workers 
and employers without punishing those who are truly unable to 
work.
    This year's budget cuts imposed on the Social Security 
Administration, nearly $1 billion below what Social Security 
needs to do its job, will make it difficult for SSA to support 
Americans with disabilities who are trying to return to work. 
Americans who are attempting to work often need specialized 
help that SSA can't provide. Congress has authorized some small 
grants paid out of SSA's regular operating budget to help these 
Americans secure the specialized support they need. We should 
do all we can to ensure that these services continue their 
successful record of helping disabled Americans return to work.
    Counselors funded through the Work Incentives Planning and 
Assistance program, or WIPA, help Americans understand and 
properly use the incentives offered by SSA that encourage the 
transition back to work. The Protection and Advocacy for 
Beneficiaries of Social Security program, or PABSS, supports 
the efforts of disabled Americans to stay on the job; for 
example, by helping them obtain necessary accommodations like 
assistive technology or adjusted work hours.
    Mr. Chairman, I hope that we move quickly to extend and 
reauthorize these two important programs that result in more 
disabled Americans working with dignity. At the same time, we 
must be careful that we do not do anything that puts Americans 
with severe disabilities and illnesses in danger of losing 
benefits they paid for with their contributions and tax 
dollars.
    Mr. Chairman, I look forward to hearing the witnesses 
today, and I am also hoping that at some point we are able to 
try to move on a bipartisan basis in reauthorizing many of 
these important programs, making the improvements where 
possible.
    With that, I yield back the balance of my time.
    Chairman JOHNSON. It can only be bipartisan if you stay on 
the committee.
    Mr. BECERRA. That is a super idea.
    Chairman JOHNSON. Before we move on, I want to remind 
witnesses to please limit their oral statements to 5 minutes, 
if possible. However, without objection, all the written 
testimony will be made a part of the hearing record.
    We have one panel today, and our witnesses who are seated 
at the table are from the Social Security Administration. 
Robert W. Williams, Associate Commissioner, Office of 
Employment Support Programs, who is accompanied by Robert R. 
Weathers II, Deputy Associate Commissioner, Office of Program 
Development and Research; Dan Bertoni, Director of Education, 
Workforce, and Income Security Issues, U.S. Government 
Accountability Office; Deb Russell, Manager, Outreach and 
Employee Services, Walgreens Company, Deerfield, Illinois; 
James Hanophy, Assistant Commissioner, Texas Department of 
Assistive and Rehabilitative Services, Austin, Texas, on behalf 
of the Council of State Administrators of Vocational 
Rehabilitation; Cheryl Bates-Harris, Senior Disability Advocacy 
Specialist, National Disability Rights Network, on behalf of 
the Consortium for Citizens with Disabilities Employment and 
Training Task Force; John Kregel, Professor, Special Education 
and Disability Policy, Virginia Commonwealth University, 
Richmond, Virginia.
    Mr. Williams, I understand you will be making a statement 
on behalf of the Social Security Administration, and Mr. 
Weathers is accompanying you to also answer questions. I 
welcome you all, and thank you for being here. You may proceed, 
Mr. Williams. You are recognized.

STATEMENT OF ROBERT W. WILLIAMS, ASSOCIATE COMMISSIONER, OFFICE 
   OF EMPLOYMENT SUPPORT PROGRAMS, ACCOMPANIED BY ROBERT R. 
 WEATHERS II, DEPUTY ASSOCIATE COMMISSIONER, OFFICE OF PROGRAM 
    DEVELOPMENT AND RESEARCH, SOCIAL SECURITY ADMINISTRATION

    Mr. WILLIAMS. Good morning, Chairman Johnson, Chairman 
Davis, Ranking Members, and Members of the Subcommittees. I am 
pleased to have this opportunity to discuss the Social Security 
Administration's employment support and self-sufficiency 
efforts. I want to start by offering you an overview of my view 
of where we need to take our programs.
    I took this job a few months ago for two reasons. The first 
is that my own life and career convince me that many more 
Americans with significant disabilities can work and become 
fully self-supporting if provided with the right opportunities 
and support. Second, I think we have an opportunity to ``right-
size'' our expectations around the Ticket to Work program and 
our other employment support programs.
    We need to be realistic and strategic about the number of 
beneficiaries who will become financially independent due to 
work and earnings, even in the best of economies. We must also 
ensure that the Ticket program and our other work incentives 
provide a path to good jobs, good careers, and better self-
supporting futures. Frankly, it is the only way we can create a 
tipping point that will enable more beneficiaries to actually 
earn their way off of the disability rolls and to create 
better, more secure lives for themselves and their families.
    It is time to change our ``any job will do'' mentality of 
job placement, where we focused on getting beneficiaries into 
low-wage jobs that offer little in the way of either career 
security or a better life. We need to focus less on the numbers 
of beneficiaries who work just above the substantial gainful 
activity level and focus instead on the quality of support 
services we provide and, most importantly, the outcomes we 
successfully support those beneficiaries to achieve and sustain 
over time. If we truly want to produce positive outcomes for 
the Vocational Rehabilitation, the Ticket, and Work Incentives 
Planning Assistance programs, the best way of doing so is by 
recognizing, supporting, reinforcing, and, yes, rewarding the 
initiative and hard-won financial independence of these 
American workers.
    The Ticket program is not where we want it to be or where I 
believe it can be in the future. Despite an unfavorable job 
market, though, we are making progress, the Ticket regulations 
we published in 2008 have significantly increased beneficiary 
and employment network participation in the program. Building 
on this momentum, we are improving the data we collect on 
working beneficiaries. This is enabling us to focus on those 
most likely to use the Ticket program and to support more 
beneficiaries to become and remain self-sufficient. I believe 
taking these steps will help make work truly work for more 
Americans with significant disabilities and, thus, advance the 
basic aims Congress set when it passed the Ticket to Work and 
the Work Incentives Improvement Act of 1999.
    As you know, last year the Congress extended funding for 
the WIPA and PABSS programs through the end of this month. 
Unless those programs are reauthorized, the money for the WIPA 
and PABSS programs will effectively run out on June 30, 2012, 
and September 29, 2012, respectively.
    Disseminating accurate information to beneficiaries with 
disabilities about work-incentive programs in support of their 
efforts to work and become self-supporting is critical, and we 
will work with Congress to improve the effectiveness of the 
program.
    We are aware of a few concerns regarding the current 
structure of WIPA grants. Findings from the most recent 
evaluation of WIPA will be available shortly, and we look 
forward to reviewing these new findings and working with 
Congress to ensure the best approach going forward.
    The Ticket Act also granted Social Security authority to 
conduct demonstration projects to test how certain changes in 
the program would affect beneficiary work and we have initiated 
several projects. My colleague Bob Weathers will answer any 
questions you may have about these projects.
    In closing, we are firmly committed to assisting 
beneficiaries with disabilities who want to work and become 
self-supporting. To increase our success, we need to refocus 
our efforts and promote real pathways that more beneficiaries 
can pursue to gain and sustain financial independence.
    Thank you for your interest in this matter. I am happy to 
answer any questions you may have.
    Chairman JOHNSON. Thank you. I appreciate your comments.
    [The prepared statement of Mr. Williams follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Mr. Bertoni, welcome. Please go ahead.

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. BERTONI. Mr. Chairmen, Ranking Members, Members of the 
Subcommittee, good morning. I am pleased to discuss work 
incentives for disability program beneficiaries; in particular, 
SSA's Ticket to Work program. The Ticket program has been under 
way for more than a decade and utilizes approved providers to 
assist beneficiaries, known as ticket holders, in obtaining 
employment and ultimately reducing their dependence on 
benefits.
    Our prior work and the work of others has questioned the 
viability of the program due to low participation and costs 
that are not offset by beneficiaries returning to work. In an 
effort to attract more ticket holders and employment network 
providers, SSA revised its regulations in 2008 to include 
additional incentives for both groups. My testimony this 
morning summarizes our May 2011 report and discusses trends in 
ticket holder and employment network participation over time, 
services provided by the various employment networks in SSA's 
management and oversight of the Ticket program.
    In summary, we found that beneficiaries assigning their 
tickets to employment network providers have more than doubled 
since 2008 to about 49,000; however, that number is relatively 
small compared to 12 million eligible beneficiaries. And 
despite increased enrollments, the extent to which 
beneficiaries are returning to work and leaving the rolls is 
unknown because SSA has not yet evaluated program outcomes as 
required by law. Because such an evaluation is key to assessing 
a program's effectiveness and long-term viability, we have 
recommended that SSA prioritize and carry through with its 
plans to study ticket holder exits from disability rolls.
    Since 2008, employment network participation has also 
increased to about 1,600 providers; however, the bulk of 
activity in more than 70 percent of the $13 million SSA paid 
out last year went to only 20 providers, and just 3 received 
nearly a third of all payments. Our analysis show that 
employment networks offer a range of services including 
assistance with job search, retention, and transportation; 
however, since 2008, an increasing number of providers are 
specifically targeting beneficiaries who are already working or 
don't need help finding work, and the largest are simply 
passing a portion of the Ticket payment back to the ticket 
holder, taking a substantial percentage for themselves and 
providing no direct services. Such transactions essentially 
result in a benefit subsidy to the ticket holder and fairly 
easy money for providers.
    We have recommended that SSA compile data and assess trends 
in employment network service provisions to determine whether 
they are consistent with the program's goal of helping 
individuals find and retain sustainable employment and reduce 
dependence on benefits.
    Finally, we found that SSA lacks management tools for 
evaluating providers and beneficiaries to ensure program 
integrity and effectiveness. For example, SSA had not developed 
clear guidance and performance measures or providers, which can 
lead to confusion about program goals and cause them to send 
mixed messages to beneficiaries about expected outcomes. In 
fact, despite the program's stated purpose to reduce benefit 
dependence, our investigator, posing as a brother of a 
fictitious ticket holder, documented multiple providers 
promoting indefinite part-time work and keeping ticket holders 
below certain income thresholds so as not to jeopardize their 
disability benefits. Similar information was conveyed on other 
providers' Web sites and recorded phone messages.
    We also found weaknesses in SSA's oversight of ticket 
holders' timely progress toward employment due to the agency's 
suspension of required progress reviews between 2005 and 
November 2010. As a result, thousands of ticket holders have 
been exempt, per program rules, from undergoing medical 
continuing disability reviews, or CDRs, for many years, 
regardless of whether they are actually moving toward self-
sustaining employment, intentionally resulting in improper 
payments to individuals who are no longer medically eligible.
    We have recommended that SSA develop program performance 
measures consistent with the Ticket law and a strategy for 
completing the backlog of required progress reviews, which SSA 
estimates to be between 13,000 and 22,000 cases per month, over 
the next year. Moreover, we have recommended that SSA 
independently verify the information reported by beneficiaries 
to more accurately assess timely progress toward sustained 
employment.
    Mr. Chairman, Members of the Subcommittee, this concludes 
my statement. I am happy to answer any questions that you may 
have. Thank you.
    Chairman JOHNSON. Thank you, sir.
    [The prepared statement of Mr. Bertoni follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Ms. Russell, welcome. It is good to see 
you again. Please proceed.

   STATEMENT OF DEB RUSSELL, MANAGER, OUTREACH AND EMPLOYEE 
        SERVICES, WALGREEN COMPANY, DEERFIELD, ILLINOIS

    Ms. RUSSELL. Thank you. Chairmen Johnson and Davis, Ranking 
Members Becerra and Doggett, thank you for the opportunity to 
testify today on behalf of our company.
    My name is Deb Russell, and I am a corporate manager at 
Walgreens. In this role I am responsible for our efforts to 
include people with disabilities in our 20 distribution centers 
that serve our 7,700 stores in all 50 States, the District of 
Columbia and Puerto Rico. Overall, this division employs nearly 
10,000 full-time employees.
    Walgreens is committed to offering and enhancing employment 
opportunities for people with disabilities. I realize that this 
hearing is dedicated to individuals who are recipients of SSI 
and SSDI, but it is difficult to speak about employing them 
without speaking about our overall experience. And to qualify, 
when we speak of people with disabilities, we are speaking 
about people who have disclosed their disabilities to us.
    Walgreens started intentionally recruiting people with 
disabilities with the opening of our distribution center in 
Anderson, South Carolina. Since the opening of that facility, 
we have found that our model works in new as well as older 
buildings and in our stores. However, the most rewarding 
demonstration of our success is the high number of companies 
who have toured our facilities and asked us for assistance in 
the development of a strategy that will work for them. 
Companies like Lowe's, Best Buy, AT&T and Procter & Gamble have 
dedicated staff and time to learn about our inclusion and then 
gone back and designed efforts that have brought them great 
success as well.
    We teach them about the factors we think made us successful 
and seem to be universally true, which are that we need 
partners, education, and high standards. We have learned that 
we do not need to have all the answers, and, in fact, we have 
found that companies who approach inclusive employment with 
that requirement seem to struggle to get their initiatives off 
the ground. We do not pretend to be perfect at this nor to have 
all the answers, but we are always happy to share our story in 
hopes that it will inspire others.
    Our relationship with Social Security started in 2007. As 
we discovered our success in Anderson, we looked for ways to 
ensure we could sustain our efforts. The Ticket to Work seemed 
like a good fit. The program has offered us a way to access 
resources that sustain needed accommodations, like sign 
language interpreters.
    The Ticket to Work's outcome payment method is a good match 
since we employ everyone in our distribution centers full time 
and at a starting pay average of over $12 per hour.
    We have three criteria for participating in this program. 
We do not want a heavy administrative burden. We do not want to 
compete with any other ENs to assign an employee's ticket and 
therefore provide the supports needed, and we do not want to 
have to manage mass inquiries from ticket holders. We also want 
to avoid the real or perceived conflict of interest of being an 
employer which requires our employees to achieve high standards 
and for each month the employee remains with us.
    Throughout our experience as an EN, multiple changes to the 
program and the contract have made it more difficult for us to 
maintain our status. Each round of changes seems to focus on 
the services an EN will offer prior to employment, which is not 
a good fit for us. And the changes usually require more 
documentation and information that we do not have access to as 
an employer. During this time both Maximus and the staff at the 
Social Security Administration's Office of Employment Supports 
have worked with us to be sure that they had the information 
needed, but allow us to deliver it in the easiest way possible.
    We have had 27 tickets assigned during our time as an EN. 
The most we have had at one point in time was 16. And to date, 
we have collected a little more than $300,000. We now have 
seven tickets that have reached maximum reimbursement, meaning 
they have worked for us long enough to no longer have their 
ticket high value. We are sure that many more of our employees 
have had tickets, but for many reasons have not surfaced 
through our Ticket activities.
    In addition to the Ticket program, we have interacted with 
WIPA. In Anderson, the benefits person attended multiple new 
employee benefit sessions to ensure he could provide thorough 
information to our employees regarding the impact of earnings 
and employee benefits on their public benefits. In all other 
buildings, our human resources staff are familiar with where to 
find their local WIPA contact information if an employee 
expresses a concern.
    As we continue to partner with the disability community, we 
still hear from agencies and parents that loss of benefits is 
an issue, but we do not hear this from our employees. We have 
no knowledge of anyone terminating their employment with us due 
to overpayments or the desire to maintain benefits as an 
alternative to work. I admit that many of our employees need 
assistance with wealth management and learning how to manage a 
life that is no longer deep in poverty, but they are not 
electing to stay home and collect a small check and stay 
immersed in the system.
    As we move our inclusion efforts into our stores, we do 
anticipate benefits being more of an issue since the nature of 
the retail industry is lower hourly pay combined with part-time 
and sometimes irregular schedules. Many of our retail employees 
will probably straddle employment and benefits, which is why we 
will not expand our role of an EN for our store employees. 
However, we will continue to offer information on local WIPA 
services to hopefully alleviate doubts and issues that come 
with remaining part of the benefits system while being 
successful in a job.
    For many of our employees with disabilities, Walgreens is 
their first full-time job. We have seen the improvements in 
their lives as they earn and receive recognition for a job well 
done and build relationships with other team members.
    I do not minimize the extraordinary challenges facing 
people with disabilities who join the workforce, but the 
toughest challenge of all is when people with disabilities are 
seen as ``them'' and not as ``us.'' A job changes that. A job 
is more than a paycheck. It is a source of dignity. The 
workplace can be a fulfilling place, a place where people with 
disabilities transform their lives from the margins to the 
mainstream. At Walgreens, we feel fortunate to have made the 
commitment to invest in employing people with disabilities, 
people who make such an enormous contribution to our company, 
our customers and their community.
    Thank you for the opportunity to tell our stories. I would 
be happy to answer any questions.
    Chairman JOHNSON. Thank you, ma'am. I appreciate that. 
Thank you for letting us visit your center down there.
    [The prepared statement of Ms. Russell follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Mr. Hanophy is from the great State of 
Texas. Is your son the one that caused Texas A&M to leave the 
Big 12 conference?
    Mr. HANOPHY. I didn't want to mention that, but----
    Chairman JOHNSON. Welcome. Please go ahead with your 
testimony.

   STATEMENT OF JAMES HANOPHY, ASSISTANT COMMISSIONER, TEXAS 
 DEPARTMENT OF ASSISTIVE AND REHABILITATIVE SERVICES, AUSTIN, 
  TEXAS, ON BEHALF OF THE COUNCIL OF STATE ADMINISTRATORS OF 
                   VOCATIONAL REHABILITATION

    Mr. HANOPHY. Good morning, Chairman Johnson, Chairman Davis 
and Ranking Members. I am here representing the Council of 
State Administrators of Vocational Rehabilitation to discuss 
Ticket to Work and work incentives designed to help 
beneficiaries with disabilities return to work.
    The public vocational rehabilitation system serves over 1 
million people with disabilities every year, and in 2010 helped 
approximately 172,000 people become employed and taxpaying 
citizens. On average, the typical VR consumer will pay back 
through their taxes the cost of their VR services in just 2 to 
4 years.
    The VR program has a longstanding partnership with Social 
Security. Social Security reimburses the VR agencies for the 
cost of services provided to the beneficiary only after that 
individual has achieved earnings above substantial gainful 
activity, which is approximately $1,000 a month for 9 months of 
any 12-month period. The reimbursements earned from Social 
Security enable VR agencies to serve more consumers and in some 
States serve consumers on their waiting list.
    CSAVR is grateful to Social Security for initiating 
positive changes in the new Ticket to Work regulations, such as 
Partnership Plus that redefines the relationship between SSA 
beneficiaries who want to work, VR agencies, and ENs. This, in 
my opinion, creates a five-way win. VR and the EN win because 
we are able to help a beneficiary go to work in a coordinated 
way with funding supports. The taxpayers win as people become 
less reliant on benefits and more self-supporting. The business 
wins because they are able to hire a qualified applicant who 
has been screened and will be well supported. And most of all, 
the beneficiary wins because they are able to go to work in a 
job that meets their talents, interests, and receive the work 
supports they may need.
    VR agencies and ENs are developing innovative arrangements 
to provide services to meet the needs of beneficiaries. In 
Texas, the VR program offers incentive payments called 
Employment Advancement Payments to EN providers for services 
from the EN if a beneficiary reaches and maintains substantial 
gainful activity. Partnership Plus also funds ongoing supports 
for ENs who provide embedded training within the Texas VR 
within our business customers where we do preemployment 
training.
    In Connecticut, Utah, Vermont, Virginia, as well as many 
other States, VR programs and ENs are working creatively to 
streamline processes, coordinate services, and leverage funding 
to increase successes for beneficiaries. These arrangements are 
as different as the States themselves, which adds to the value 
of Partnership Plus.
    In Connecticut, the VR program is also working with 
Walgreens, who is an EN, to meet their business needs. 
Walgreens built a state-of-the-art distribution center where 
now currently 45 percent of the employees are people with 
disabilities.
    In addition to highlighting the Partnership Plus successes, 
these examples also illustrate the success the VR program has 
had in developing a dual-customer approach, whereby VR works 
for both a person with a disability and a business as 
customers. The VR National Employment Team consists of VR 
agencies that have developed a network of business partners 
committed to hiring qualified applicants who have disabilities, 
resulting in more full-time jobs with benefits and career 
opportunities for SSA beneficiaries. An example of this is the 
partnership with Walgreens and Texas, where one-third of the 
people hired at the distribution center in full-time jobs with 
benefits are SSA beneficiaries.
    We would also like to offer some suggestions for program 
improvements. People who come on the disability rolls earlier 
stay longer, cost more, and lose out on work opportunities. 
Social Security might explore an option of paying more for 
outcome payments or offering bonus payments for serving younger 
beneficiaries.
    Also, while not inherently part of the Ticket, we urge the 
Committee and SSA to aggressively explore an early intervention 
model for applicants for SSI and SSDI benefits. CSAVR has 
developed a risk-free early intervention proposal that might 
help applicants try to work first. This is attached to our 
written testimony. This completely voluntary program would not 
stop the disability application process; however, before 
eligibility for benefits is determined, an applicant would be 
provided immediate access to temporary cash assistance, 
immediate access to health care, and immediate access to 
vocational services designed to help a person go to work. The 
proposal would suspend the Social Security disability 
application once employment above SGA is found. However, if 
employment fails, the work effort would not be considered as 
evidence against the participant in their application for 
disability benefits. We believe a pilot targeted to a select 
number of States with a sample of applicants would cost little 
and inform us greatly about the potential.
    Last, it is important to keep in mind the effort to help 
SSA beneficiaries return to work is more than just a matter of 
having a ticket. SSA funds the Work Incentive Planning and 
Assistance project, or WIPA, and we cannot stress strongly 
enough how important benefits planning is to helping SSA 
beneficiaries understand the various work incentives in SSI and 
SSDI. CSAVR respectfully requests the Committee to reauthorize 
the WIPA program in a timely fashion and provide the resources 
needed to ensure this critical service is available to 
beneficiaries. The WIPA project is a proven benefit that works 
and deserves our full support.
    Again, thank you for the opportunity to testify, and I will 
answer any questions you have.
    Chairman JOHNSON. Thank you, sir.
    [The prepared statement of Mr. Hanophy follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Ms. Bates-Harris, welcome. Please 
proceed.

 STATEMENT OF CHERYL BATES-HARRIS, SENIOR DISABILITY ADVOCACY 
 SPECIALIST, NATIONAL DISABILITY RIGHTS NETWORK, ON BEHALF OF 
 THE CONSORTIUM FOR CITIZENS WITH DISABILITIES EMPLOYMENT AND 
                      TRAINING TASK FORCE

    Ms. BATES-HARRIS. Good morning. Thank you, Chairman 
Johnson, Chairman Davis, and other distinguished Members of the 
Committee for this opportunity to testify today regarding work 
incentives in the Social Security disability programs. As 
indicated, I am representing the CCD, Consortium for Citizens 
with Disabilities Employment and Training Task Force. The CCD 
Employment and Training Task Force believes that meaningful 
employment represents one of the best opportunities for people 
with disabilities as they work toward becoming a productive and 
fully included member of society.
    Social Security work programs are among the many critical 
avenues for Social Security beneficiaries to gain access to 
employment. We support improvements to Social Security to make 
it more effective in serving those that rely on it; however, we 
stand firm in our belief that changes to the Social Security 
system should not be made in the hothouse environment of 
deficit reduction.
    Considerable attention is being given to the plight of 
long-term umemployed, and it is important that policymakers 
understand that millions of people with disabilities are 
disconnected from the workplace and do not fall within the 
traditional definitions of long-term unemployment. Therefore, 
these critical services are essential to ensure their 
participation and return to employment.
    Employment of individuals with disabilities requires a 
comprehensive approach that addresses all aspects of the 
service system to ensure that the vision of integrated 
competitive employment is fostered and promoted. Ongoing staff 
development, among systems staff and service providers, is 
vital so that they not only embrace the vision, but have the 
technical knowledge to implement it. A holistic approach 
requires addressing a wide range of other issues: outreach to 
and engagement with employers, service monitoring and quality 
assurance, engagement of individuals and families, and the 
availability of benefits counseling and protection and advocacy 
support which will allow community employment, transportation, 
interagency collaboration, just to name a few.
    Over the past decade, Congress has focused most of its 
attention only on the Ticket to Work program. Revised 
regulations and things have drastically changed the program, so 
I am not going to talk so much about the Ticket as much as the 
supports of the two critical programs that are soon to expire.
    The first is, of course, the Protection and Advocacy for 
Beneficiaries of Social Security. It is the responsibility of 
these programs to provide information and advice about 
obtaining vocational rehabilitation and employment services, 
information and referral services to beneficiaries on work 
incentives, advocacy, and, most importantly, legal services 
that a beneficiary needs to secure, maintain, or regain 
employment, including the investigation and remedy of 
complaints of employment discrimination and other civil and 
legal rights violations. Despite the extensive set of duties 
and growing demand for services, the PABSS program has been 
funded at the same level, and its authorization expires at the 
end of the fiscal year.
    The WIPA programs inform beneficiaries on the impact that 
employment will have on disability income and medical coverage, 
and addresses many of the fears that individuals have about 
going to work at the risk of losing health coverage. Authority, 
again, for these grants will expire.
    More needs to be done to ensure that individuals and 
families are aware of the availability of these critical 
services, and that consistently provides the message that 
encourages employment in the community rather than simply the 
preservation of benefits. So we believe that it is really 
important to address those.
    Some of the other issues that we also think are critically 
important to continue are the expanded use of the employment 
networks; the Medicaid Infrastructure grants, the Partnership 
Plus model. The Social Security Administration's revised Ticket 
regulations improved the overall effectiveness of the program, 
and it is important that these things continue.
    The Ticket program is poised to benefit from data-matching 
advances.
    And one area that has slipped due to staffing shortages is 
the process of earnings reported by beneficiaries. When 
beneficiaries get overpayment notices, it is shocking to 
beneficiaries when they receive these notices and assume that 
the information has been processed properly.
    The rest of my testimony is written and can be submitted 
for the record, and I am happy to answer any questions that you 
have.
    Chairman JOHNSON. Thank you, ma'am. It will be entered into 
the record.
    [The prepared statement of Ms. Bates-Harris follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Dr. Kregel, please go ahead.

  STATEMENT OF JOHN KREGEL, PROFESSOR, SPECIAL EDUCATION AND 
DISABILITY POLICY, VIRGINIA COMMONWEALTH UNIVERSITY, RICHMOND, 
                            VIRGINIA

    Mr. KREGEL. Thank you, Chairman Johnson, Chairman Davis. 
Thank you very much for this opportunity. I will focus my 
comments today on the Work Incentives Planning and Assistance, 
or WIPA, program.
    Individuals with disabilities who receive SSI and SSDI are 
frequently viewed as unemployable when in reality millions of 
beneficiaries have clear goals to work and reduce their 
reliance on disability benefits. Of the 13 million current SSA 
beneficiaries, it is estimated that 2.7 million see themselves 
working in the near future, and an additional 2.6 million have 
also been employed or looked for work in the past 12 months. 
These 5.3 million individuals should be the primary focus of 
SSA's employment and return-to-work initiatives.
    So why aren't more people working? First, disincentives in 
our SSA program rules often penalize beneficiaries who attempt 
to work. Most depend on their SSA benefits to meet their basic 
needs and would tremendously benefit from working. 
Unfortunately, beneficiaries are repeatedly told that 
employment will quickly lead to loss of their benefits. This is 
absolutely not the case. Yet fear of losing benefits leads them 
to unnecessarily choose not to work or to needlessly restrict 
their work hours and earnings.
    Second, while many beneficiaries would willingly forgo 
their cash benefits for the possibility of increasing their 
income through employment, they still fear potential loss of 
their corresponding Medicaid or Medicare coverage. Many 
beneficiaries possess serious chronic health conditions that 
would make the loss of health care coverage catastrophic to 
them personally.
    Third, beneficiaries fear potential overpayments or sudden 
benefit termination. Local Social Security offices, facing 
enormous pressures while attempting to respond to the large 
increases in program applications, simply lack the personnel 
and time necessary to accurately administer the work-incentives 
provisions. The result is an abundance of disruptive 
overpayments and a sudden loss of benefits that often lead 
beneficiaries to abandon their hopes for long-term employment.
    To address these problems, SSA has established the Work 
Incentives Planning and Assistance, or WIPA, program. The WIPA 
program is an employment support that is designed to enable SSA 
beneficiaries to pursue their goals of personal employment and 
economic self-sufficiency. WIPA services refer to efforts by a 
rigorously trained community work incentive counselor to 
provide accurate and complete information to SSA beneficiaries 
to enable them to obtain employment, return to work, and reduce 
dependence on SSI and SSDI.
    Currently the WIPA initiative is comprised of 102 projects 
providing benefits to SSA beneficiaries in all 50 States and 
territories. Collectively the projects employ 500 rigorously 
trained Community Work Incentive Coordinators, many of whom are 
themselves individuals with disabilities. Since their inception 
in 2000, WIPA programs have provided work-incentive counseling 
services to over 450,000 SSI, concurrent and SSDI 
beneficiaries, including 60,000 persons served over the past 
year.
    So what do they do? In Dallas, a 40-year-old gentleman 
named Danny secured a heart transplant after a 6-year battle 
with heart disease. He thought he could never work again 
without losing his $1,800-per-month SSDI check. After working 
with the WIPA project for 3 months, he is working 15 hours per 
week and is earning over $1,500 a month for a heavy equipment 
sales company. In November, his $1,800 check will go to zero, 
saving SSA $20,000 per year for hopefully many years to come.
    Jay in Louisville is a young man with developmental 
disabilities, who receives SSI and has a Medicaid waiver for 
personal and employment supports. His father contacted a CWIC 
when Jay began working with a new supported employment 
provider. The family has received work incentive counseling and 
information that have allowed them to feel comfortable in 
letting Jay go to work for the University of Louisville in a 
job that provides him earnings at a level of over $1,000 per 
month. Each month he works results in a savings of $400 to SSA. 
Given his age, these savings will compound over the next 
several decades. If his earnings increase, the savings to SSA 
will increase as well.
    In Los Angeles, Michael received a termination letter on 
his benefits. The letter also stated that he had an overpayment 
of $79,000, money he was ordered to pay back to the Social 
Security Administration. The CWIC assigned to this beneficiary 
thoroughly reviewed his case and discovered the client was 
incorrectly terminated. Due to the CWIC's diligence, attention 
to detail, and excellent rapport with SSA Claims 
Representatives and community partners, both issues were 
resolved. The beneficiary received reentitlement to his SSDI 
check, and the alleged $79,000 overpayment was cleared.
    Services provided by WIPA projects lead to increased 
employment, improved earnings, and reduced dependence on 
disability benefits. These outcomes lead to significant 
reductions in the overall amount of general funds and trust 
fund payments to beneficiaries. These savings are large enough 
to offset the cost of the program and could be expected to 
compound steadily over time as individuals leave the disability 
rolls after receiving WIPA services and remain in the workforce 
for many years to come.
    Thank you, Mr. Chairman, and I appreciate the opportunity 
to answer any questions.
    [The prepared statement of Mr. Kregel follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. I thank all of you for your testimony. We 
will now turn to questions. And as is customary for each round 
of questions, I will limit my time to 5 minutes and ask my 
colleagues and my companion chairman here to limit your time to 
5 minutes as well.
    Mr. Bertoni, GAO found employment networks paid by Social 
Security who were essentially coaching ticket holders to work 
part time so they wouldn't lose their benefits even though the 
goal of Ticket to Work is to get individuals back to work and 
off disability. I understand you have taped conversations to 
prove this. I would appreciate it if you would play a couple of 
these conversations for us and then tell me, one, how 
widespread it is; two, what Social Security has done to address 
it; and three, what this says about Social Security's ability 
to manage this or other work-incentive programs.
    Mr. BERTONI. Sure. Let me quickly preface this by saying 
that in interviewing the employment networks, 15 of 25 of them 
told us that SSA had not articulated any specific outcomes for 
them, nor had they provided performance goals. So in an 
environment like that, you really run the risk of, number one, 
confusion in terms of how you explain the rules; lack of 
consistency across the various profiles in terms of how those 
rules are applied; and last, it is an opportunity for a 
potential abuse. So any one of those things could be coming 
into play with these recordings. It just shows that when you 
have that type of environment, that these types of things can 
happen. So if you want to roll those tapes, that would be 
great.
    [Tape played.]
    Mr. BERTONI. It looks like they just went with two calls.
    Your question was, how pervasive? We don't know how 
pervasive this is. What we did is we followed the money. We 
went with the top 20 providers, and we talked to an additional 
5 providers. We had three lines of questioning. We had lines 
for shared payment approaches. We had calls for employer-driven 
approaches, and we had calls for vendors that we didn't know 
what they were doing. Based on the descriptions of their Web 
sites, and interviews that we had, and documents that we looked 
at, we really couldn't discern what the services that were 
being offered, so we felt that we had to call these individuals 
and sort of get behind that information.
    We made eight calls to different providers. We had multiple 
no answers, no contacts where we couldn't get through. But 
three of those eight resulted in these conversations where it 
appeared that there was some real coaching going on.
    SSA doesn't have a good sense of this either. We do know 
there are other Web sites and other providers that are 
promoting this type of activity, but we don't have a good sense 
of the universe or what is going on amongst the 1,600 
providers. But SSA could do that. They could get behind that.
    You asked actions they can take and are taking. They do a 
secret shopper program. They have a secret shopper program. You 
could systematically do exactly what we did: sample or go 
through the entire range of employment networks, the larger 
providers, and sort of get a sense of the extent to which this 
is happening.
    I think one of the primary things that has to happen here 
is they really need to establish performance metrics that are 
designed to move employment networks toward pushing employment 
that is beyond part-time work. Until you establish that metric 
and you hold these folks accountable, again, you have 
opportunity for confusion, inconsistent application, and 
perhaps abuse.
    Chairman JOHNSON. Thank you. My time has expired. I 
appreciate you all looking at that. Thank you so much.
    Mr. Williams, would you care to respond?
    Mr. WILLIAMS. Yes, I would.
    Chairman JOHNSON. Go ahead.
    Mr. WILLIAMS. We have established clear performance 
standards and expectations that coaching people to limit their 
earnings is completely unacceptable, and we are weeding out 
those that do. We have instituted a contract process that will 
enable us to terminate bad actors and have done so already. 
Additionally, we will submit a response for the record.
    [The information follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    

    Chairman JOHNSON. Thank you, sir.
    Mr. Bertoni, are you guys on top of most of the States in 
the country?
    Mr. BERTONI. In terms of----
    Chairman JOHNSON. Looking at this program.
    Mr. BERTONI. The distribution of the 25 providers gave us 
some good geographic distribution, but I don't know if we 
covered--we certainly didn't cover every State.
    Chairman JOHNSON. Well, no two States are alike, I presume.
    Mr. BERTONI. No. But the rules of the program should be 
alike, and they should be applied very consistently.
    Chairman JOHNSON. Agreed. Okay. Thank you for your 
comments. And I have extended my time.
    I recognize Chairman Davis. And thank you for having your 
Subcommittee join us today.
    Chairman DAVIS. It is a privilege, Mr. Chairman.
    Mr. Bertoni, I want to follow on the line of having SSA get 
necessary program information. Do we know how much taxpayers 
have spent on the Ticket to Work program since it started, 
including amounts paid to employment networks?
    Mr. BERTONI. Sure. I can give you recent information from 
our reporting period a little bit before that. When we 
reported, it was about $34 million in administrative costs and 
about $13 million paid out in Ticket dollars to ticket holders. 
In 2007, that amount--Ticket payments were about $3.8 million. 
By 2008, they were $5.6 million. By 2009, they were up to 
$12.6, and partial-year 2010 were $13 million. So that is about 
$41.5 million in Ticket payments.
    This year here, though, we have a real rapid increase in 
these payments. We see that is a pretty significant increase 
post-2008, primarily driven by the rapid increase in 
beneficiaries from 22,000 to 49,000. So this program has 
grown--well, the numbers are relatively small. It has grown 
quickly in terms of the payments. And when you look at the 
potential eligible beneficiaries, there are 12 million people 
out there who have a ticket who could come forward at some 
point in the near future. So this program is poised to grow, 
and it could be significantly, based on the numbers that could 
take up the tickets.
    Chairman DAVIS. It sounds like a disproportionately high 
amount of administrative costs for the current payout. Do we 
know what aspects of the Ticket program are working?
    Mr. BERTONI. I think, as SSA and others have said, I think 
they have done a very good job of increasing the number of 
employment networks and are doing a significant job in 
increasing the number of folks who are taking up tickets and 
using them.
    Chairman DAVIS. I guess maybe a bigger question is, in my 
mind, getting people into a program is not necessarily a 
definition of effectiveness. Would you rate the Ticket program 
as effective? And do you believe that SSA is adequately 
collecting and analyzing proper information to be able to 
answer these sorts of questions?
    Mr. BERTONI. To date, no. I think the front part of that is 
getting folks in the program is important. You have to work 
with something. But there is a management aspect to this, and 
from that standpoint, I think they have not been effective in 
many ways in terms of vetting and approving the employment 
networks to ensure they are qualified; in terms of monitoring 
individual ticket holders; certainly establishing performance 
measures to hold employment networks accountable; and also to 
evaluate and reevaluate the program, determine what is working 
and what isn't, what are the trends in service provisions, and 
what are the outcomes that are coming out of this program. That 
is what is not happening, and that is what we don't know, and 
that is what SSA does not know to date.
    Chairman DAVIS. Dr. Weathers, do you have anything to add?
    Mr. WEATHERS. Yes. We do have an independent evaluator, 
Mathematica. They have been doing an evaluation of the Ticket 
program since its inception. Many of their earlier reports--
they have already produced five reports--were used in order for 
us to change the program in 2008 with the new regulations.
    Since 2008, we have been collecting data on outcomes of 
ticket beneficiaries, and we just completed a national 
beneficiary survey. Mathematica is conducting an analysis of 
that national beneficiary survey so we will be able to measure 
outcomes of ticket beneficiaries since the new regulations went 
into place in 2008. But it does take time for a new program and 
new rules to be communicated to the public and to 
beneficiaries, and we need to wait a period of time before we 
can effectively evaluate how the new rules are working.
    Chairman DAVIS. Okay. Dr. Kregel, as an academic, do you 
think Dr. Bertoni's findings are acceptable, and what do you 
recommend we do to hold Ticket to Work and other work-incentive 
programs accountable?
    Mr. KREGEL. I think that it is important to set performance 
standards for each of these programs. Looking at, for example, 
the Ticket program, it is important to ask, in the absence of 
this program, would these people still return to work? And if 
you look at the examples that have been cited that effectively 
indicate that individuals are assigning their ticket with an 
EN, they are working, but the EN is not providing them any 
service, then it is very reasonable to say, in the absence of 
this program, wouldn't this person have gone to work anyway? So 
the notion is, if the program is not there, would these 
individuals return to work? Would it result in savings to the 
government, savings to SSA? And that is the question that needs 
to be addressed going forward.
    Chairman DAVIS. I will just leave you with a thought. And 
perhaps those of you on the panel that feel so moved, but 
specifically from Dr. Weathers and Mr. Bertoni, I would 
appreciate just a response in writing for the sake of time.
    It seems that there are compelling disincentives for people 
to want to go to work, particularly what I have seen in the 
eastern portion of my district, an outright racket with 
attorneys who are advertising on the radio for benefits, that 
make outrageous fees, and, you know, really want to discourage 
folks from going back to work and the benefits of that.
    I would be interested just as an adjunct in this, in order 
to make Ticket to Work work, what are some things that might be 
able to be done to curtail the program from an inappropriate 
perspective; wanting to help people, but at the same time 
avoiding folks profiteering off the backs of these folks in 
need?
    [The information follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Chairman DAVIS. With that, I thank the chairman for his 
additional indulgence, and I yield back.
    Chairman JOHNSON. Thank you. I appreciate your comments.
    Mr. Becerra, you are recognized for 5 minutes.
    Mr. BECERRA. Thank you, Mr. Chairman.
    And thank you all for your testimony and your work.
    Mr. Bertoni, I want to focus in on some of the things that 
you have been saying, because you are going to get most of the 
attention here. I want to see if I can get ahold of a threshold 
question. We are talking about folks who qualify for SSI or 
SSDI benefits. We are talking about folks who have proven to 
have a health condition that is severe enough that they would 
qualify to receive some form of assistance, disability 
assistance. No one is questioning that the folks that we are 
talking about are disabled in some form that are interested in 
trying to work.
    Mr. BERTONI. Correct.
    Mr. BECERRA. So having said that, as I listen to those 
tapes, my sense was that we may have to work on these 
employment networks.
    Mr. Bertoni, do you have anything to share with us that 
shows that beneficiaries were trying to game the system?
    Mr. BERTONI. No. I think the--our recommendations in my 
introduction was that it is between the agency and the 
employment networks where the guidance needs to be clarified, 
and these networks need to be educated as to what you can't say 
and what you can say, and how best to screen and counsel folks 
to get them back to work.
    Mr. BECERRA. So you have given us some good guidance on how 
to zero in to try to make these programs work better, because I 
don't hear anyone saying here that beneficiaries are trying to 
game the system, get benefits that they don't deserve, or game 
the system by saying they are working or working enough and 
then keep both benefits and salaries.
    Mr. BERTONI. No. In fact, if you listen to the tapes, you 
go to the Web sites, or you read any of SSA's materials that 
they put out, that is what is said: You can work. You can work 
part time. It is acceptable. But there is a ``for a period of 
time'' in there, of course. But I think these folks are reading 
this as, I can do this.
    Mr. BECERRA. So now I want to get the question to you in 
just a second, but first I want to ask Ms. Russell a question.
    The chairman and I were just chatting about the work that 
Walgreens is doing, which seems to be tremendously helpful to a 
lot of these folks who are receiving these disability benefits 
that are trying to work. So I want to make sure we don't paint 
with a broad brush all these employment networks, because there 
seem to be some that are trying to do this the right way. And I 
would hate for folks who are trying to really connect someone 
who is receiving these disability benefits with a job, all of a 
sudden I feel like, gosh, I am getting bashed over the head for 
trying to do this, and I am also investing some pretty 
significant resources to make it work.
    Have you found a particular formula that helps you succeed 
so that you don't find that your folks on the other end of the 
phone doing something like this?
    Ms. RUSSELL. Yeah. I think that our formula for success 
overall mirrors our formula for success with the Ticket 
program, and that is that education is key. Our individuals, 
our staff people who are involved in the Ticket program, are 
well educated on what parameters within our role as an employer 
and our role as an employment network they need to operate 
within. They are provided a lot of information about what they 
can and can't say, what they can and can't do. We maintain a 
lot of the control at corporate, which prevents us from having 
to worry about things happening out in the field that would be 
inappropriate.
    Mr. BECERRA. I will ask Mr. Williams and Dr. Weathers, I 
know you have some budgetary issues, staffing issues, but I 
suspect that there are some employment networks that are out 
there that produce well and most folks that, say, are doing the 
right thing. I am not sure if it is a matter of getting the 
best practices from some of these folks or somehow doing things 
because I know you are shy of money. But I think there has got 
to be a way, short of making very expensive investments, to try 
to make this program work.
    I think what Mr. Bertoni had pointed out through these 
taped phone conversations is that either the employment network 
folks are trying to help these folks maintain as much of an 
income as possible, or they are trying to avoid having to bring 
them on full time. Either way I think we need to figure that 
out.
    Mr. Bertoni, let me ask you this: SSA just took a massive 
hit in its budget. It is receiving $1 billion less than it said 
it needed just to try to keep pace with an already growing 
caseload. What you are suggesting that they do is program 
integrity isn't cheap, and it is not free. They would have to 
hire more folks or put more investments up front with people 
who are already steeped with work in order to try to up front 
catch some of this gaming activity. Is that correct?
    Mr. BERTONI. There is no question with more resources you 
can do more. I guess the position we have is this program has 
been around since 1999. It has been growing, expanding. There 
were some new initiatives in play. And there is some blame to 
be laid at the agency's management doorstep in terms of what 
could have been done in prior years.
    Luckily, we are here at a time when the program is not 
huge. Five years from now, we could have a bigger problem on 
our hands. These are issues that need to be addressed. And 
within the resources they have, I think they can leverage some 
of that to do better. If they had more resources, could they do 
more? Absolutely.
    Mr. BECERRA. Thank you for that. And I just hope that what 
SSA does is takes some of this information, perhaps talks to 
some of those who have shown some good practices, and try to 
quickly take advantage of those best practices so that we can 
move the program forward, you know, make it work better, 
because I think what we are showing is that there are a lot of 
Americans who are receiving disability benefits who would love 
nothing more than to be able to go to work as much as possible. 
So thank you all for your testimony.
    Mr. WILLIAMS. If I might, sir, I agree we need to do more 
to identify what is working, and a prime way we need to do this 
is to learn more about the over 5,000 people that have left the 
rolls with the support of an employment network. That, to me, 
is where to start.
    Chairman JOHNSON. Thank you, sir.
    Mr. Brady, you are recognized for 5 minutes.
    Mr. BRADY. Thank you, Mr. Chairman. Both of you, thanks for 
holding this hearing.
    Ticket to Work is a great concept, it makes great sense not 
just for taxpayers, but for those with disabilities that, as 
technology progresses, it allows them to move back into the 
workforce. It makes sense. My frustration is that after 15 
years, we don't know if this works.
    Dr. Weathers, a simple question. A decade and a half, what 
percentage of those using Ticket to Work have now gone on to 
full-time, sustained employment? What percentage?
    Mr. WEATHERS. A very, very small percentage. We are 
currently conducting an evaluation of the percentage of people 
who have returned to sustained full-time employment since the 
new regulations were in place in 2008. We needed a 3-year 
period in order to track.
    Mr. BRADY. Do you have numbers prior to that?
    Mr. WEATHERS. We do have numbers prior to that, yes, 
between 2001 and 2006, and the numbers were very, very small. 
And that is what inspired the impetus behind changing the 
regulations in 2008.
    Mr. BRADY. What was that percentage? I am not trying to pin 
you down. I am trying to figure out what we can do to make this 
really work.
    Mr. WEATHERS. I can provide that number for the record for 
you.
    Mr. BRADY. Bigger than a bread box; 5 percent, 10 percent?
    Mr. WEATHERS. No. I would say around 5 to 10 percent is the 
ballpark. But I can provide you with a more precise number for 
that.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. BRADY. What do you expect the new numbers to be?
    Mr. WEATHERS. I would hope that we could get it up much 
higher than that.
    Mr. BRADY. What do you think it ought to be?
    Mr. WEATHERS. I would hope that we could make it work for 
everybody that is using a ticket. But I think if we could get 
50 percent, that would be a pretty good number.
    Mr. BRADY. My frustration, this is a great concept. This 
ought to be working. After 15 years, it isn't. So my 
frustration is, you know, Mr. Williams talked sincerely about 
having performance standards clearly lined out. Mr. Bertoni 
said 15 out of 20 of the employment networks say they don't 
have it. Clearly there is gaming of this system. It seems to me 
we need a fresh start on this program. You know, 5 percent, 10 
percent, 20 percent just aren't the numbers I think anyone was 
hoping for when, in a bipartisan way, we put this program 
together.
    Let me ask the panelists, if we could start with a fresh--I 
don't mean end it--if we could start with a blank page and 
redesign this, knowing what the technologies are today, knowing 
what the common disabilities are today, what would you do 
differently? How would we start with a fresh slate and recreate 
a program that really did help people get back to sustainable 
work? Any panelists?
    Ms. BATES-HARRIS. I would like to say something. As a 
representative of the National Disability Rights Network, I 
feel compelled to remind people that people on Social Security 
benefits are among the most disabled people in this country, 
and many of them want to return to work. And unfortunately, as 
my boss would say, discrimination is our business, and business 
is good. And sometimes you can get all the perfect services in 
place, but discrimination is alive and well, and people do not 
get employed.
    Mr. BRADY. I understand.
    What do you believe is an acceptable rate? What do you 
think our goal ought to be? Five percent?
    Mr. KREGEL. I would like to answer that directly. The 
evaluation that Dr. Weathers talks about has identified that 
currently in this country, there are about 2.6 million SSA 
beneficiaries who indicate that they would like to work, and 
they see themselves working in the foreseeable future.
    Mr. BRADY. How many, Doctor----
    Mr. KREGEL. 2.6 million.
    Mr. BRADY [continuing]. Would like to go back to work?
    Mr. KREGEL. Would like to go back to work, and who have 
either worked during the past year or have taken action toward 
working in the past year, such as applied for a job, taken a 
training course or something like that.
    What should the number be? Well, the programs should first 
focus on those 2.6 million people, and then we can look at 
other people whose health conditions may improve. And then we 
move our services toward those individuals as well.
    In terms of starting over with the Ticket program, I think 
that it is important to keep in mind that 12 years have passed, 
and not only has the situation changed for SSA beneficiaries, 
but the situation has also changed in terms of how employment 
services are designed and delivered to people with disabilities 
generally. And I think that to start all over, it would be 
important to incorporate some of the cutting-edge best 
practices that have been described to you by Mr. Hanophy and 
described to you in terms of the Walgreens operation. These are 
the kinds of things--employer partnerships, working in 
collaboration with public and private enterprises that really 
need to be included in the redesign of the Ticket program. By 
incorporating the resources out there, we can get a lot farther 
along in terms of who we are serving.
    The other thing that needs to be done, as Mr. Hanophy 
pointed out, is to look at people who have been on the rolls 
for a very short period of time, and that includes transition-
age youth. Returning to work for someone who has been on the 
rolls for 22 years and is now 45 years old is a different 
challenge than for someone who is 22 years old. We don't want 
these individuals locked into lifelong dependency on Federal 
benefits. So targeting the Ticket program to transition-age 
youth and involving private-public partnerships with business, 
I think, are the major areas that we can explore in terms of 
redesigning the program for more effective services.
    Mr. BRADY. Well, thank you. Again, this is such an 
important program. For those who want to go back to work, there 
has got to be a smarter, better way to do this.
    Mr. Chairman, thank you.
    Chairman JOHNSON. Thank you.
    The gentleman's time has expired. Mrs. Black, you are 
recognized for 5 minutes.
    Mrs. BLACK. Thank you, Mr. Chairman.
    And I thank you, panel, for being here today.
    Mr. Bertoni, I want to go to what we heard on the audio in 
reference to the misinformation that is being given by those 
who should know the correct information. Is it your opinion 
that we are just not training those who are working in the 
offices, that they don't know the information? Or how do we get 
such misinformation being given out?
    Mr. BERTONI. I don't know what the extent of training is. I 
would defer to the SSA on that. I would say that over time, and 
with the changes to the regulations--basically the regulations, 
it is a couple key things. Number one, they lowered the bar at 
which employment networks could be paid, so that made part-time 
earnings attractive to both ticket holders as well as 
employment networks. They were trying to entice more 
individuals on both sides of the equation into the program.
    Another thing the regulations did was to make it acceptable 
for employment networks to directly pay the ticket holders from 
the Ticket money, so that essentially increased the value of 
the shared payment model.
    And thirdly, it also allowed for those whose medical 
improvement was expected to participate in the program.
    So we have sort of a convergence of folks here who could, 
in fact, benefit from part-time work and early payments.
    So we see this new guidance come out. We see these are 
allowable things. And the firewall between SSA and the field, 
the employment networks, is there. And someone has to work 
through this firewall to communicate even with those changes 
that are acceptable, what are the ultimate end goals for this 
program. Yes, part time should be the start for many. It might 
be it for many. But certainly if we can get people into part-
time work, and for those that can move up to more substantive 
employment, that should be the end goal, because that is the 
stated purpose of the program. I am not sure everybody knows 
that.
    Mrs. BLACK. Well, thank you. I think you are right. And 
obviously, the people that were taking these phone calls did 
not know that. But you also made mention that you thought they 
should develop program performance measures. How would you see 
those performance measures? What would be in those?
    Mr. BERTONI. I would hate to be too prescriptive here, 
because any one that I threw out, the people would come behind 
me and tell me I had a bad measure.
    I guess right now I believe there is one measure for the 
program. That is the number of ticket holders with an assigned 
ticket. To me, that is the start. You have found the person. 
You have given them the ticket. They have assigned it to an 
employment network.
    But the outcome measures are not there. We have outputs, 
but not outcomes. Really, the number of folks who have moved 
on, who have transitioned to sustainable, long-term employment 
that has allowed them to reduce dependency and benefits, part 
of that should be in the equation when you are evaluating how 
effective an employment network is.
    Mrs. BLACK. And I know I am going to run out of time very 
quickly here. So, Dr. Weathers, do you agree that this is a 
good recommendation? And if so, what do you all plan on doing 
to initiate those kinds of measures that will help to show what 
kinds of outcomes are there?
    Mr. WEATHERS. Bob Williams' office is responsible for 
putting together a report card, and I think he could say a word 
or two about what they are doing.
    Mr. WILLIAMS. We have, in fact, initiated such benchmarks, 
including one that will hold ENs responsible for moving some 
beneficiaries into jobs that pay at least twice the poverty 
level. It is not enough to get someone off benefits if doing so 
makes them worse off than they are now.
    Mrs. BLACK. Thank you.
    Mr. Chairman, if I may ask in writing, Ms. Russell, could 
you tell us about some of the barriers that you have found in 
working with the program? I congratulate you for doing what you 
have done.
    And then, Ms. Bates-Harris, you talked about 
discrimination. And if I could have you in writing tell us a 
little bit more about where those discrimination factors are 
and how you think we might overcome those. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman JOHNSON. You are welcome.
    Could you two respond that way, in writing, please? Thank 
you.
    [The information follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman JOHNSON. Mr. Stark, you are recognized.
    Mr. STARK. Thank you. Thank you, Mr. Chairman. Thank you 
for this hearing. And I thank the witnesses for enlightening 
us.
    I must take this opportunity to thank SSA, and in 
particular their San Jose office, which services our office 
nearby for the numerous inquiries we get. We just get wonderful 
service from them. And I am afraid they are going to need help. 
The number of inquiries is growing. The number of the elderly 
people is growing. And the money to fund that growth in service 
has got to come from somewhere. I don't think there is an SSA 
fairy that is going to sprinkle that dust on you and allow you 
to hire the people or pay them for overtime. So as we see more 
people with more severe health problems, I hope that we can 
find the additional funding to let you continue to provide that 
good service.
    I want to make sure that you have cleared your phone 
messages with the PATRIOT Act. And I didn't notice that you had 
inquired about the offers for half-price Viagra that Sam and I 
keep getting. And are those legitimate offers or not? If you 
could look into that for us, and we would appreciate it very 
much.
    The one question that I wanted to direct to Ms. Bates-
Harris is the question of the disregards. We have disregards 
for beneficiaries' income in determining their eligibility. And 
it is my understanding that those were set about the time that 
I came to Congress. And the average benefit was under $500, and 
SSI benefits were reduced for income that exceeded $65 a month, 
and if a recipient earned as little as $20 a month from any 
source, the disregards came into effect. Do you think that it 
is time that we have a modest change in that and bring those 
disregards from the seventies up to standards of today, that 
that would just be a fair and proper thing to do?
    Ms. BATES-HARRIS. Absolutely, positively. The $20 general 
income disregard and the $65 earned income disregard have 
remained static, and, in fact, people have basically lost money 
on that with the cost of inflation. So we really believe that 
they should be indexed and increased just the same as how the 
SGA and the other factors in the Social Security program are 
indexed.
    Mr. STARK. Thank you.
    I want to thank all of you for your work in this area. It 
is important to our seniors, to our people with disabilities, 
and that is a growing population. Thank you for your service. 
Thank you for your testimony today.
    Chairman JOHNSON. Thank you, Mr. Stark.
    Mr. Reed, you are recognized for 5 minutes.
    Mr. REED. Thank you, Mr. Chairman.
    Maybe it is because I was up late last night and then I had 
to listen to that. That angers me. That angers me, that tape, 
and it angers me on multiple levels. But most importantly it 
angers me because there is a good mission that you are trying 
to accomplish with these programs and with SSA and the disabled 
Americans across the country. And we applaud that. I support 
that. I don't think you are going to get any opposition up here 
on both sides of the aisle from that mission. But when you hear 
stuff like that and the people that are abusing the system at 
the cost of the true people that are disabled and doing the 
right thing day in and day out, I want to know, what is the 
result of that? Are those two individuals that were taped, are 
they still involved in this process? Have they been terminated, 
out of this program? Yes or no?
    Mr. WILLIAMS. Yes.
    Mr. REED. Excellent. And I hope that continues, because 
that oversight needs to be done because that type of behavior 
needs to end.
    Mr. WILLIAMS. It will.
    Mr. REED. What I would like to ask--and I am also getting a 
little tired of the mantra of, we need more funding in order to 
accomplish the mission. The harsh reality of our country and 
our fiscal resources are we don't have the funding. I would 
love to be able to give you all the funding you needed, but I 
think the harsh reality of our world today and our Nation today 
is that we don't have those unlimited pots any longer.
    So I am looking to you, Dr. Weathers and Mr. Williams, to 
tell me, what is your plan to deal with the reality of the 
situation where more funding is just not going to be on the 
table? When I ran my businesses, and I hit hard times, I had to 
make tough choices. I had to reprioritize my mission and my 
goals. I had to reallocate employees to areas that were 
critical objectives of my business in order to accomplish the 
mission. Do you have that plan in place?
    Mr. WEATHERS. We recognize these are lean times. 
Commissioner Astrue has said that we are going to have to make 
difficult choices about service delivery. Mr. Williams and I 
aren't involved in our day-to-day operations and budget 
process, but we would be happy to submit to the record more 
information on your question.
    Mr. REED. I would appreciate that. And also, what that new 
mission plan or that business plan, if you would, for SSA going 
forward in the reality of these times would be.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. REED. And that gets to my last question. I am hearing, 
as I read this testimony and hear this testimony and look at 
the evidence, I feel there is a big issue here of duplication 
of services. And I know there was a hearing here on this 
Subcommittee before looking at the benefits planning services 
or grants to community organizations, work incentives planning, 
protection advocacy for beneficiaries of Social Security, the 
laundry list of programs that are out there. Is that an example 
of efficiency? Would anyone like to----
    Mr. WILLIAMS. Yes. Both the WIPA and the Protection and 
Advocacy programs serve distinct functions. One focuses on 
providing information and assistance on using our complex work 
incentives, and the other on legal assistance. Whether there 
are efficiencies to be had by a better cooperation and 
coordination. In that area we would be glad to explore.
    Mr. REED. I would be glad to be a partner in that effort.
    With that, I yield back, Chairman.
    Chairman JOHNSON. Thank you.
    Mr. Paulsen, you are recognized for 5 minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman, also for holding this 
hearing and for all the witnesses being here.
    Let me switch gears a little bit. Dr. Kregel, the Social 
Security inspector general was rather critical of WIPAs in 
their recent report for not having adequate performance 
measures. And when reviewing the data provided on all WIPAs, 
there are a lot of process measures that are in there. How 
quickly was the beneficiary contacted? Were they informed about 
possible options, et cetera?
    But what there aren't so much in there are these outcome 
measures or performance measures, like did the beneficiary 
attempt to return to work or actually return to work? Isn't 
that what this is all about? If you go back to maybe what Mr. 
Brady was asking about earlier, about how would you redesign 
this with a blank piece of paper, et cetera, tell us a little 
bit about that. How much does the WIPA program cost to date? 
How many people have obtained work as a result of it, and how 
would we redesign it and look on those performance measures?
    Mr. KREGEL. The WIPA program costs $23 million per year to 
fund the 102 projects, including the Minnesota Work Incentive 
Connection, which is really recognized as one of the top 
programs in the country. They estimate that they save $1.7 
million per year as a result of the $300,000 funding level that 
they receive to do their ongoing work.
    But you are absolutely right. Performance measures to date 
have focused on the process, what are we doing. And outcome 
measures really need to be the focus of what we look at going 
forward, particularly in light of whether or not this program 
should be continued for an extended period of time. This would 
include whether individuals are working at a level that would 
result in reduced benefits, or working at a level that would 
result in terminated benefits? Are they working at all? Or do 
they have access to the health insurance so that they continue 
to meet their complex health care needs?
    But also there needs to be savings, return on investment 
from the moneys that are invested in the WIPA program or any of 
the other programs. That would be increasing the number of 
individuals exiting the rolls, reduction in the cost of 
disability payments, reduction in the cost of public health 
care benefits and reduction in the number and amount of benefit 
overpayments, something that hasn't been talked about today, 
but another area where the WIPA program and several of these 
other programs can make a huge difference looking at the 
billion-dollar problem that exists in the area of overpayments 
today.
    Mr. PAULSEN. Why are not some of these standard measures 
when reviewing WIPA in general? For that matter, for any of 
these work incentives?
    Mr. KREGEL. I think that the focus has been, as these 
programs have evolved, to look at how effective is the process, 
with the assumption that the process will lead to the outcomes. 
But now these are more mature programs. There is information 
that exists, for example, that says that the WIPA program will 
generate a 3-for-1 return on investment if you look at the 
resources that are devoted to this effort and the savings in 
benefits payments and that type of thing. But this has only 
been done with very recent information and it really needs to 
be looked at on a broad scale to make sure that we are not 
paying for an outcome that might have occurred anyway, given 
the nature of the situation.
    So these things are long overdue, and I know that these 
benchmarks are being established by SSA, and they are looking 
at that going forward.
    Mr. PAULSEN. Dr. Weathers or Mr. Williams, can you follow 
up on that a little bit?
    Mr. WEATHERS. I can follow up.
    We are going to be releasing a report on the WIPAs looking 
at the outcomes of the beneficiaries that they serve within the 
next few weeks. We just received the final report last week, 
and we are reviewing it, and we are happy to submit it for the 
record. But I do think that it shows some positive outcomes in 
terms of employment for beneficiaries who are served by the 
WIPA organizations.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. WILLIAMS. We have established in the grantees' 
contracts that went into effect this July many of the outcome 
measures that John mentioned. We are not where we need to be 
at. It is going to take a constant push for a culture change, 
because, frankly, the perception is that working full time and 
being financially independent cannot and does not work for 
people with significant disabilities. We know that many young 
people on SSI who go to college either never finish, or, if 
they do, they do not go to work. That is a national tragedy, 
but, likewise, a huge opportunity to, as I say, right-size what 
this program is about and what we need to be held accountable 
for achieving.
    Chairman JOHNSON. Thank you.
    Dr. McDermott, you are recognized for 5 minutes.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    I may be the only one on the dais, maybe in the room, who 
has actually sat in hearings with people applying for SSI. As a 
psychiatrist, I used to see them frequently in Seattle. And as 
I listen to this discussion, I keep thinking about SSI 
patients. And I don't know that people--if you have never 
talked to someone who is on SSI and spent some time with them 
and realized what their life is about, it is important to 
realize what this system is.
    You have to have a disability that is going to keep you off 
the rolls for a year, that you are going to be unable to work 
for a year, or die. Those are the sort of end points of the 
assessment. So you don't get on easily. If you get on SSI, it 
means you have never had any connection to the workforce or any 
substantial connection to the workforce. So you are really at 
the bottom of the working population in this country, if you 
can be considered that at all.
    Then we designed the program in 1974, and we haven't 
upgraded it. I mean, tell me nothing has changed in cost since 
1984, right? If you get $65 of income from earnings and $20 
from any other source--your brother gives you $20--$85 you now 
have on top of your $499 on SSI--that is the average--you start 
to lose $2 for every $1 that you earn. Now, you tell me what 
the incentive is to go out for a job and know that for every 
hour you work or every 2 you work or 3 hours you work, you are 
going to lose the pay for 2 of those hours. It is a program 
that is designed poorly and needs to be reformed from the 
basics of the way it works.
    And I think that a lot of this performance stuff we are 
looking for--I mean, I can give you all kinds of cases from 
Missouri and Illinois and New Mexico. You know, there are 
endless problems. And I would like for Ms. Harris to talk a 
little bit about what you see out there. Give us a picture so 
everybody on this Committee can understand who these SSI people 
are as human beings.
    Ms. BATES-HARRIS. Well, first of all, they are individuals 
who are very poor because the program is means-tested. So they 
can basically have no or very, very limited resources. They are 
significantly disabled or impaired and, as you indicated, with 
very little work history, which means that either their 
disability has been so prevalent over their lifetime that they 
have been unable to enter the workforce or possibly even 
benefit from the education system and have not obtained the 
necessary skills required for jobs.
    So we are talking about people who need a lot of support 
and need a lot of assistance, and who are extremely dependent 
on the income supports from the Social Security program to have 
a place to live and to be able to put food on their table. And 
to those individuals, the thought of returning to work and 
risking the benefits because the work incentives are 
complicated, or they don't understand them, or people have told 
them if they go back to work, they are going to lose their 
Medicaid, or if they go back to work, they are going to lose 
their cash benefit, these are individuals who are in a very, 
very precarious situation and who very much need the services 
and supports that are offered by both the WIPA, the PABSS 
program, and other community programs out there that will help 
them improve their quality of life.
    Mr. KREGEL. May I follow up to that as well?
    Mr. MCDERMOTT. Yes.
    Mr. KREGEL. I agree entirely with your analysis of the SSI 
program. And you wonder what makes these people want to go to 
work. Well, the answer basically is that the mean benefit is 
$500, and 71 percent of the SSI population live below the 
poverty level, 71 percent. So the situation is these are 
individuals who are at risk of not having food on the table. 
They are at risk of not having shelter over their heads. And 
they are courageous enough, some of them, to go ahead and try 
to increase their income, even though the rules are stacked 
against them, out of sheer economic necessity in many, many 
situations.
    I agree entirely with your comments in terms of the 
disincentives within the SSI Program. I just think that we need 
to understand that the reason that people take some of these 
courageous steps is out of sheer economic need to meet the 
basic needs, including food and shelter.
    Mr. MCDERMOTT. The bottom line being if you keep them poor 
enough and hungry enough, they will ultimately finally find 
some way to get out of it; is that what you are saying?
    Mr. KREGEL. The situation is that also their health is 
impacted by living in poverty the way that they are, and they 
look at extensive health care costs.
    So I think anything that can be done so that when SSI 
beneficiaries work that they are not penalized for working is a 
very, very sound approach in terms of moving forward. It is the 
best way to go.
    Mr. MCDERMOTT. Thank you.
    Chairman JOHNSON. Thank you.
    Mr. Berg, you are recognized for 5 minutes.
    Mr. BERG. Thank you, Mr. Chairman.
    I come from a State where, quite frankly, we are looking 
for employees. We have got around a 3 percent unemployment 
rate. And I am just sitting here. And again, the big problem as 
I see it is in 2018, we are broke. So we have kind of been 
dancing around a lot of these questions. But it seems to me 
that that is really the number one thing that we need to focus 
on.
    Having said that, if there are 2.6 million people who would 
like to work, it seems like that is almost 25 percent of the 
people that would like some sort of work. And if in 2018, 
according to the numbers that we are given, we would only be 
able to fund 84 percent. Well, quite frankly, if half the 
people that wanted to work found work and became self-
sufficient from an income standpoint, that would certainly push 
that 2018 date out.
    So I guess--and I appreciate the concern of not wanting 
people to coach to the program, but, quite frankly, I don't 
think anyone really needs any coaching to look at the program 
and realize that if you make more than $1,000, you are going to 
lose all your benefits. It is not that complicated for anyone 
that is on the program. So it seems to me that there are really 
some fundamental flaws in the program that need to, quite 
frankly, encourage people and partner with people getting on 
their own rather than creating some sort of barrier. When they 
figure it out, they are making $2, $3 an hour for the extra 
work. So, I mean, that is kind of one of the big chunks.
    We are running out of time here, and it appears to me that, 
obviously, what we have heard from the employers, that is one--
I mean, there are two ways of doing this, from my perspective. 
We could take from the employers and kind of work an 
environment where we have work and opportunities, or it seems 
like we can also just push people from the bottom up. I would 
like to hear from Mr. Hanophy about how can we encourage 
employers to--are there barriers there? Are there things that 
we can do that would encourage employers to say, here is a real 
opportunity to bring a valuable person into my company long 
term?
    Mr. HANOPHY. Sure. Thank you.
    Essentially there are three parts to that. Number one is 
what we identified earlier, which is the dual customer; in 
other words, knowing the business and knowing your applicant, 
the person with a disability. That means understanding what the 
business needs, but understanding how they operate, how the 
jobs operate, the work culture. Once you are able to do that, 
you are able to have a discussion with this business about your 
ability to bring them a qualified applicant.
    Study after study shows that the reason why people get 
hired is because they can do the job. And so this isn't about 
charity. This is about helping them find an applicant who can 
do the job. So the key for the providers is to provide the 
supports and also do the screening and make sure these 
applicants are qualified.
    Number two is helping a business increase their access to 
an applicant pool of people with disabilities. The term we 
prefer to use is ``multiple portals.'' We have had examples 
with Walgreens and several other companies where by providing a 
little bit more training on the front end or a little better 
adjustment on the front end, we are able to help--we call it 
embedded training, for lack of a better term, where an 
applicant with a disability can hear the noise, smell the dust, 
be a part of the work environment, but learn at a pace to where 
they will be able to get up to speed to eventually be hired by 
that employer. So different portals of entry.
    And then the third piece is support. Companies very often 
are very interested in supporting people with disabilities, but 
don't know how. We hear the term ``reasonable accommodations.'' 
I prefer to use the term ``adjustments,'' because a reasonable 
accommodation is nothing more than a commonsense adjustment to 
help somebody go to work. My favorite example is, if your job 
requires you to reach something on the top shelf, and you can't 
get that thing on the top shelf, let us move it down. And it 
doesn't matter if you are 4 feet 11 or you are in a wheelchair. 
Let us just move it down and move on.
    And providing supports about how to help folks with 
significant disabilities adjust to work tasks. This is where 
the Partnership Plus model, I think, has been effective in 
partnering with Social Security in being able to provide some 
of those longer-term supports.
    The bottom line is know your business and know your 
individual with a disability.
    Mr. BERG. Thank you.
    Ms. Russell, I would like to ask you a kind of similar 
question. If from a business-down approach you are going to 
develop or increase it, are there barriers that are out there? 
Or what changes would you like to see?
    Ms. RUSSELL. I think the barrier we experience is trying to 
locate the talent. And that is, as Mr. Hanophy just described, 
something that we have been able to find in Texas with their 
assistance is being able to locate the individuals who have the 
skills that match what we are requiring. It is unfortunate that 
we have a lot of situations where a week goes by, and I see 
that we have hired 50 new workers, and not one of them is 
identified as somebody with a disability. It is 50 
opportunities that our partners have passed on by not being 
able to help us find the individuals with disabilities who have 
the skills to do our jobs. So it is all about a talent pool and 
finding the talent, developing the talent, and then being able 
to match it to the business' needs.
    Mr. BERG. Thank you, all.
    I will yield back, Mr. Chairman.
    Chairman JOHNSON. Mr. Crowley, would you care to question? 
You are recognized for 5 minutes.
    Mr. CROWLEY. Thank you, sir. Let me thank you and Chairman 
Davis for holding this hearing today. I want to thank the 
witnesses for their testimony.
    My office frequently hears from our constituency about 
navigating the Social Security benefits, the disability system, 
and, quite frankly, it is one of the most frustrating things 
about our office, I think. I think I speak for both sides of 
the aisle in this because they are repeated, and, over a period 
of time, one of the most time-consuming aspects of the office. 
I am not complaining about that. That is what we do. That is 
why we are here to help them navigate.
    But, Ms. Bates-Harris, if I could ask you to just comment. 
Obviously not everyone can work. There are some people in this 
world who, by no fault of their own, simply just do not have 
the wherewithal for various reasons to work. Is that correct?
    Ms. BATES-HARRIS. My philosophical--because my original 
work in the field came from the Rehab Act, and the premise of 
the Rehab Act is that all individuals, regardless of the 
significance of disability, are capable of engaging in an 
employment outcome if they are given the proper services and 
supports, my gut reaction is to say that everyone can work. But 
unfortunately all the resources and supports are not in place, 
so there are individuals who cannot work.
    Mr. CROWLEY. In the perfect world--just clarify this for 
me. There are some people in this country who do not have the 
ability to work. Those individuals do exist. Am I not correct?
    Ms. BATES-HARRIS. Yes, they do.
    Mr. CROWLEY. So in a perfect world, if the Ticket to Work 
program worked perfectly, there would still be a need for SSI 
and SSDI benefits; is that not correct?
    Ms. BATES-HARRIS. Absolutely, positively.
    Mr. CROWLEY. That is an important point just to note. I 
appreciate the recording of that was played as well, understand 
that that could be disturbing, as many of the things in life 
are disturbing to all of us, I think. But also, when people are 
asked a question and are answering to the best of their ability 
and following the guidelines of the law, I think that also 
needs to be taken into consideration regardless of the 
characterization of how that question is asked.
    One of the questions my office often gets from constituents 
is, can I still work while receiving disability benefits? Ms. 
Bates-Harris, in your written testimony you mentioned the 
importance of the Work Incentives Planning Assistance program, 
which supports benefits counselors in the community to answer 
just those types of questions. What kind of impact will our 
constituents see if this program is not reauthorized, 
particularly once the funding begins to run out?
    Ms. BATES-HARRIS. I think that it would have a devastating 
impact on those people who are motivated and want to return to 
work, because we would fall back onto the old beliefs that if 
you go back to work, you are going to immediately lose your 
benefits, you are going to lose access to your health care, and 
you are going to lose access to the other supports.
    I think it has been a very slow process getting the public 
and people with disabilities to understand that, yes, there is 
going to be an impact on your benefits, but depending on 
whether you are getting SSI or SSDI, the impact is not 
immediate. If people understand what is going to happen and how 
it is going to happen, then it allows them to plan their lives 
and plan their return to work and make the adjustments that 
they need to be successful in it. And without it, people would 
simply give up and not even try.
    Mr. CROWLEY. You mentioned the Affordable Care Act and the 
opportunity it gives disabled individuals to receive health 
care without having to rely upon public assistance. What are 
some of the several beneficial provisions included in this law 
which would be lost if the law were to be repealed?
    Ms. BATES-HARRIS. I am sorry, would you repeat the 
question?
    Mr. CROWLEY. You mentioned the Affordable Care Act in your 
written statement, and the opportunities it gives to the 
disabled individual to receive health care without having to 
rely upon public assistance. If that were to be repealed, which 
many of my colleagues on the other side would like to see 
happen, what would be the fallout from that? Do you understand?
    Ms. BATES-HARRIS. I do understand the question. And I am 
sorry, I am a little tired, I traveled late last night.
    I think, you know, the biggest issue right now is that 
people with disabilities face a lot of discrimination in 
insurance and insurance coverages and what will be covered; for 
instance, assistive technology and durable medical equipment 
and things like that. And without access to health care, and 
without access to the services and supports they need, which 
are very different for different people, they would not be able 
to maintain the health status that they have, and would not be 
able to basically, you know, maintain their level of wellness, 
so to speak, to enable them to continue to work. And I am not 
sure that I answered your question.
    Mr. CROWLEY. I think you answered the question just fine. 
And given that you got in late last night, we were up late last 
night.
    Ms. BATES-HARRIS. I know. We were on the same schedule.
    Mr. CROWLEY. Just for the record, I am not picking on you. 
I was going to move on to someone else after that anyway, but I 
ran out of time.
    Ms. BATES-HARRIS. Sorry.
    Mr. CROWLEY. Thank you, ma'am.
    Chairman JOHNSON. Thank you all for your testimony.
    Thank you, Mr. Crowley.
    I appreciate you all being here. Chairman Davis and I are 
interested in improving the system, if we can, and helping the 
people out there that need help.
    Again, thank you all for being here today, for your 
testimony. I look forward to working with you and all my 
colleagues to make sure work incentives achieve the results 
Congress and the taxpayers expect, and those with disabilities 
deserve.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:17 a.m., the Subcommittees were 
adjourned.]
    [Questions for the Record follow:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
